                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                    NASA’s Use of Space Act
                        Agreements




                             OFFICE OF AUDITS
                                 AUDIT REPORT
IG-14-020                        JUNE 5, 2014
(A-13-007-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

DARPA        Defense Advanced Research Projects Agency
FAR          Federal Acquisition Regulation
FY           Fiscal Year
GAO          Government Accountability Office
ISS          International Space Station
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
SAA          Space Act Agreement
SAAM         Space Act Agreement Maker
SAP          Systems Applications Products
SIERA        System for International External Relations Agreements


                                                                 REPORT NO. IG-14-020
JUNE 5, 2014




                                                                                           OVERVIEW

                     NASA’S USE OF SPACE ACT AGREEMENTS
                                                                                           The Issue

   The National Aeronautics and Space Act (Space Act) grants NASA broad authority to
   enter into agreements with diverse groups of people and organizations in both the private
   and public sectors to advance its wide-ranging mission and program objectives. These
   agreements include traditional contracts, leases, and cooperative agreements, but also
   “other transactions” commonly referred to as Space Act Agreements (SAA).

   NASA enters into reimbursable, nonreimbursable, funded, and international SAAs.
   SAAs establish a set of legally enforceable promises between NASA and a second party,
   requiring a commitment of Agency resources, including personnel, funding, services,
   equipment, expertise, information, or facilities. The purpose of SAAs is to enhance
   NASA’s ability to advance cutting-edge science and technology and to stimulate industry
   to start new endeavors. In addition, SAAs can entice companies to work with NASA that
   traditionally have not pursued more conventional forms of agreements, such as contracts
   and grants, because of the complexity of applicable regulatory requirements and the
   associated costs.

   Since NASA’s inception, the Agency has entered into thousands of SAAs for such varied
   purposes as obtaining fundamental research to nurturing the development of commercial
   launch vehicles. While NASA has limited records showing how the Agency used its
   Space Act authority in the early years, our analysis of recent data shows that the number
   of SAAs increased by more than 29 percent between fiscal years (FY) 2008 and 2012.
   Reimbursable SAAs experienced the largest percentage growth at 41 percent. In
   addition, during this period NASA entered into 13 funded SAAs worth $1.8 billion to
   support the development of commercial cargo and crew spaceflight capabilities.1 NASA
   officials attributed the increase in SAAs during this 5-year period to termination of the
   Space Shuttle Program, which freed up portions of the Agency workforce and facilities.
   According to these officials, NASA often pursued SAAs with other Government agencies
   and commercial partners to help offset facility maintenance costs until the Agency
   needed them in the future.




   1
       As of FY 2014, NASA has entered into 15 funded SAAs worth more than $2.2 billion.



REPORT NO. IG-14-020
                                                                                         OVERVIEW



     SAAs are not typical contracts subject to the Federal Acquisition Regulation (FAR) or
     other Federal procurement statutes and, consequently, NASA and partners have
     considerable latitude in negotiating their terms. NASA officials believe this enhanced
     flexibility helps promote creativity and have found SAAs to be more cost-effective than
     contracts. On the other hand, NASA’s use of SAAs has the potential to result in fewer
     overall protections for the Agency as well as decreased accountability of taxpayer funds.

     In this audit, we examined NASA’s management and use of SAAs. Specifically, we
     assessed whether NASA effectively (1) advertised opportunities for outside parties to
     utilize capabilities the Agency makes available through SAAs, (2) identified the full costs
     of work it performed under reimbursable SAAs and properly billed partners, (3) ensured
     that the Agency received fair and reasonable benefits from partners in nonreimbursable
     SAAs, and (4) determined whether reimbursable and nonreimbursable SAAs align with
     NASA’s missions. We also assessed the benefits and limitations of funded SAAs.
     Details of the audit’s scope and methodology are in Appendix A.

     Results

     We found that NASA could better ensure equal access to its facilities and capabilities and
     potentially increase the number of parties interested in entering into SAAs by expanding
     the Agency’s efforts to solicit interest in its facilities and resources. We also found that
     NASA cannot identify the costs incurred or effectively measure the benefits derived from
     nonreimbursable SAAs; has unclear guidance regarding when it is appropriate to use
     SAAs and the manner in which reimbursable and nonreimbursable SAAs must align with
     Agency missions; and cannot readily separate amounts billed and collected from
     reimbursable SAAs from proceeds received from other types of reimbursable agreements.
     In addition, we question the Agency’s decision to refrain from including more specific
     information about its objectives and key safety elements in funded SAAs. Finally, we
     found little formal guidance relating to the administration of funded agreements in
     current Agency policy.

     NASA Could Do More to Ensure Potentially Interested Parties Are Aware of Space
     Act Agreement Opportunities. NASA policy stresses the importance of providing
     outside parties with equal access to NASA’s capabilities, expertise, and facilities.
     However, we sampled 95 SAAs between NASA and non-Federal partners and found the
     Agency had solicited potential interest or otherwise advertised the opportunity for only
     5 SAAs.

     Although we recognize it is not practical to advertise all SAA opportunities, in our
     judgment, NASA could increase awareness among industry, academia, and researchers of
     opportunities to collaborate with the Agency and utilize its capabilities, facilities, and
     expertise by being more proactive in this area. For example, we found that Centers rarely




ii                                                                           REPORT NO. IG-14-020
OVERVIEW



   issue Requests for Information, public notices, press releases, or use other mechanisms to
   highlight particular areas of collaboration in which NASA is interested in supporting or
   identifying specific capabilities and facilities available to outside parties. However, when
   Centers did use such mechanisms, they reported increased interest.

   Increasing efforts to ensure that more groups are aware of and have the opportunity to
   participate in SAAs could help avoid perceptions of favoritism when commercial entities
   stand to gain from their relationships with the Agency. Moreover, increasing awareness
   of NASA’s capabilities could help the Agency defray the costs of maintaining
   underutilized facilities and capabilities. Such initiatives, in turn, would also provide
   greater transparency into the Agency’s SAA formulation process.

   NASA Cannot Identify Costs Associated With or Benefits Derived from
   Nonreimbursable Space Act Agreements. While nonreimbursable SAAs are structured
   so that each party bears the cost of their participation without an exchange of funds,
   NASA nevertheless incurs costs associated with any personnel, facilities, expertise, or
   equipment it contributes. We found that NASA Centers generally do not track the costs
   specific to each nonreimbursable SAA and therefore cannot identify how much they
   spend on these agreements.

   Of the 49 nonreimbursable SAAs we sampled, NASA could only provide cost data for
   4 SAAs. NASA officials explained that Centers or programs typically do not track such
   costs because they are normally insignificant and accounted for within the project or
   program budget associated with the agreement. However, we found that the aggregate
   costs for nonreimbursable SAAs are significant – at least $96 million from FYs 2008 to
   2012. In addition, by failing to account for these costs, NASA cannot readily perform a
   cost-benefit analysis to assess the value nonreimbursable SAAs bring to the Agency and
   the broader aeronautical, scientific, and space exploration communities.

   We also found that because it lacks a “close-out” process or similar mechanism to
   document and record the outcomes and results of nonreimbursable SAAs, NASA has
   difficulty identifying how it or the broader scientific community benefitted from the
   agreements. This is in contrast to the process used for grants and cooperative agreements
   in that final progress reports and documentation of results are required to provide
   evidence of the value of the sponsored research and ensure proper stewardship of public
   funds. In our judgment, gathering similar information regarding nonreimbursable SAAs
   would help NASA evaluate the value of these agreements and provide greater
   transparency and accountability regarding their use.

   Interpretation of “Mission Requirement” for Space Act Agreements Varies Among
   Centers. Although NASA policy requires that SAAs be “consistent with” or “further”
   Agency missions, we found that Centers and Mission Directorates have differing
   interpretations of this requirement that result in widely differing applications. Most have
   interpreted the policy to mean that the activity covered by the SAA must directly relate to
   a NASA mission – for example, aeronautics research conducted by a commercial
   business in a NASA wind tunnel. However, some Centers have taken the position that as


REPORT NO. IG-14-020                                                                              iii
                                                                                                     OVERVIEW



     long as the proceeds from a SAA help to maintain a needed NASA facility or capability
     the actual activity performed under the agreement need not directly relate to a NASA
     mission. Under this interpretation of the policy, between FYs 2008 and 2012, the
     Kennedy Space Center entered into 14 reimbursable SAAs for an estimated $392,000
     under which NASCAR and other automotive racing teams and manufacturers utilized its
     Shuttle Landing Facility for straight-line vehicular aerodynamics testing. Similarly,
     Michoud Assembly Facility entered into 13 reimbursable SAAs for an estimated
     $2.9 million under which movie production studios, engineering firms, manufacturing
     companies, and other private entities with no direct connection to NASA missions
     utilized excess office and warehouse space at the facility. Both the Kennedy Space
     Center and Michoud Assembly Facility used the proceeds from these SAAs to reduce
     operating costs.

     As we pointed out in a 2012 report, while using SAAs to help offset operations and
     maintenance costs for underutilized assets can benefit NASA, the Agency must be careful
     not to use such arrangements to maintain facilities and capabilities it no longer needs.2 In
     our judgment, improved guidance regarding the manner in which SAAs must align to
     NASA missions and the appropriate circumstances in which to use SAAs or other types
     of agreements, such as leases, would ensure Centers use the most appropriate vehicle
     when entering into partnerships with other entities for use of NASA facilities and
     resources.

     NASA Cannot Readily Identify Amounts Billed or Collected From Reimbursable
     Space Act Agreements. In addition to SAAs, NASA collects proceeds from outside
     entities under a variety of other types of reimbursable agreements.3 Although the Agency
     has a process in place to account for and recoup these proceeds as a whole, we found that
     NASA cannot readily identify amounts associated with reimbursable SAAs because its
     accounting system does not have a common identifier to separate SAAs from other types
     of reimbursable activity.

     To address this and other issues, NASA formed the Reimbursable Process Team to
     develop solutions to improve the tracking and accounting of proceeds from all types of
     reimbursable agreements. The team is developing a four-phase approach to integrate data
     between Agency databases that contain information about SAAs and the Agency’s
     accounting and reporting systems. As of February 2014, NASA was developing a
     schedule to complete this process, at which time Agency officials expect to be able to use
     NASA’s accounting systems to generate comprehensive reports that include both
     financial and nonfinancial data. Having this capability should provide additional insight
     and enable the Agency to better identify, track, and account for the nearly $540 million of
     annual reimbursable activity generated by SAAs.

     2
         NASA Office of Inspector General, “An Assessment of the Agency’s Real Property Leasing Practices”
         (IG-12-020, August 9, 2012).
     3
         NASA’s reimbursable activities can occur under numerous authorities, including the Space Act,
         Economy Act, Commercial Space Launch Act, Commercial Space Competitiveness Act,
         Intergovernmental Personnel Act, Enhanced Use Lease Authority, and Host-Tenant Agreements.



iv                                                                                      REPORT NO. IG-14-020
OVERVIEW



   NASA Provided Limited Information About Agency Objectives and Safety
   Requirements in Commercial Crew Funded Space Act Agreements. Although the
   Space Act does not explicitly prohibit NASA from using its “other transactions” authority
   to acquire goods or services, it has taken the position that the Federal Grant and
   Cooperative Agreement Act of 1977 and other Federal laws and regulations require the
   use of contracts when the purpose of an agreement is to purchase goods or services
   intended for the direct benefit of NASA.4 Accordingly, in its commercial cargo program
   the Agency used funded SAAs to foster development efforts followed by FAR-based
   contracts to acquire actual resupply missions to the International Space Station.
   Similarly, NASA began crew development efforts using SAAs to nurture commercial
   capabilities, entered into FAR-based contracts as it moved toward certifying vehicles, and
   will use additional contracts to procure actual crew transportation missions.

   Consistent with this policy and to maintain a clear distinction between SAAs used to
   develop commercial capabilities and contracts to acquire services, NASA refrained from
   providing specific guidance regarding Agency objectives and safety requirements to its
   commercial crew partners as part of Agency funded SAAs. For example, none of the
   281 technical and safety requirements the Commercial Crew Program identified were
   included in the SAAs. Rather, NASA published the requirements 22 months after
   initiation of the Program in a separate, nonbinding document after the partners were well
   into the design phase of their efforts. In contrast, under a typical FAR-based contract
   many of these requirements would have been included in solicitation and contract
   documents. As we have discussed in previous reports, the absence of requirements in
   funded SAAs increases the risk that spaceflight systems developed pursuant to these
   agreements may not meet Agency’s requirements or require extensive and costly redesign
   to do so. Accordingly, we believe NASA should consider being more prescriptive when
   using funded SAAs to develop spaceflight technology by identifying and including in the
   agreements high-level program objectives and key safety elements.

   Management Approach for Administering Funded Space Act Agreements is Not
   Governed by NASA Policy. Although the milestone approach to managing cost,
   schedule, and performance for funded SAAs appears to have worked well for NASA in
   the commercial cargo and crew programs, this and related procedures are not codified in
   formal NASA guidance. Without codifying the current milestone management
   procedures and other management tools that have worked well for funded SAA programs
   to date, it will be more challenging for Agency officials to ensure the consistent
   administration of future development programs that use such agreements.




   4
       The Federal Grant and Cooperative Agreement Act of 1977, 31 U.S. Code § 6303 (1977), states “An
       executive agency shall use a procurement contract as the legal instrument reflecting a relationship
       between the United States Government and a State, a local government, or other recipient when – (1) the
       principal purpose of the instrument is to acquire (by purchase, lease, or barter) property or services for
       the direct benefit or use of the United States Government; or (2) the agency decides in a specific instance
       that the use of a procurement contract is appropriate.”



REPORT NO. IG-14-020                                                                                                 v
                                                                                            OVERVIEW



                                                                                    Conclusion

     Throughout its history, SAAs have provided NASA a valuable means to advance science
     and technology and to stimulate research in aeronautics and spaceflight. In recent years,
     NASA has turned to SAAs to stimulate the private sector to develop spaceflight systems
     for commercial cargo and crew transportation and to help offset the cost of maintaining
     underutilized facilities following the end of the Space Shuttle Program.

     However, unlike traditional government contracts, grants, or cooperative agreements,
     SAAs are not subject to the FAR or other Federal laws and regulations intended to ensure
     that costs are allowable and prices fair and reasonable. Accordingly, NASA’s use of
     SAAs has the potential to result in fewer overall protections for the Agency as well as
     decreased transparency and accountability regarding how the Agency is using taxpayer
     funds.

     We believe NASA could better ensure equal access to its facilities and capabilities and
     potentially increase the number of parties interested in entering into SAAs by expanding
     its efforts to advertise or solicit interest in its facilities and resources. In addition, NASA
     needs to improve its internal controls over SAAs to identify costs incurred and benefits
     derived from nonreimbursable SAAs; agree on a clear and consistent understanding
     regarding when it is appropriate to use SAAs versus other types of lease agreements and
     the manner in which reimbursable and nonreimbursable SAAs must align with Agency
     missions; and develop the ability to separate proceeds from reimbursable SAAs from
     those derived from other types of reimbursable agreements. We also believe NASA
     could promote better outcomes when using funded SAAs to develop new space
     technologies if it included more information about Agency objectives and key safety
     elements in the agreements. Finally, NASA should codify the milestone management
     procedures it used for its cargo and crew development efforts to ensure consistent
     administration of future development programs that use funded SAAs.

     Management Action

     In order to increase transparency, accountability, and oversight of NASA’s use of SAAs,
     we recommended NASA’s Associate Administrator for Mission Support establish policy
     and procedures to increase awareness of NASA’s SAA opportunities, revise Agency
     policies to clarify when it is appropriate to use SAAs, and establish a close-out process,
     or similar mechanism, to track the costs and benefits of nonreimbursable SAAs. In
     addition, we recommended NASA’s Chief Financial Officer complete and implement the
     Reimbursable Process Team’s recommendations to improve the reimbursable process and
     establish policy and procedures to account for the costs of NASA’s nonreimbursable
     SAAs. We also recommended NASA’s Associate Administrator for Human Exploration
     and Operations consider identifying and including high-level program objectives and key
     safety elements when using future funded SAAs and codify milestone management
     procedures into a NASA directive, requirements document, or guide.



vi                                                                              REPORT NO. IG-14-020
OVERVIEW



   In response to a draft of this report, NASA’s Associate Administrator for Mission
   Support concurred with our recommendations to increase awareness of NASA’s SAA
   opportunities, revise Agency policies to clarify when it is appropriate to use SAAs,
   implement the Reimbursable Process Team’s recommendations, include high-level
   program objectives and key safety elements in future funded SAAs, and codify milestone
   management procedures. He partially concurred with our recommendations to establish a
   close-out process and policies and procedures to account for the costs of NASA’s
   nonreimbursable SAAs, stating that NASA’s accounting systems are not set up to track
   costs for nonreimbursable activity. Therefore, in lieu of establishing a new process to
   account for the costs, he plans to revise the process for reviewing nonreimbursable
   agreements to include the establishment of Estimated Price Reports with annual
   validations of estimated costs. He also plans to develop a close-out process, however,
   that process will not capture overall costs to the Agency for particular nonreimbursable
   SAAs.

   We consider the Associate Administrator’s comments to be responsive to our
   recommendations and will close the recommendations upon completion and verification
   of the proposed corrective actions. However, while we support NASA’s efforts to
   estimate costs and develop a close-out process for nonreimbursable SAAs, we encourage
   the Agency to continue to work toward developing a process to fully account for these
   costs and incorporate them into their close-out process in the future. Establishment of
   further guidance and processes to increase awareness of SAA opportunities, determine
   the appropriateness of their use, account for their costs and benefits, and increase
   oversight are all positive steps that will provide greater transparency and accountability
   into the Agency’s use of the agreements.

   We incorporated management’s technical comments on our draft into the final report as
   appropriate. Management’s full response to the draft report is reprinted in Appendix B.




REPORT NO. IG-14-020                                                                            vii
JUNE 5, 2014




                                                       CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives _________________________________________ 11

   RESULTS
      Increased Awareness and Additional Controls Would
         Enhance Transparency and Accountability of NASA’s
         Space Act Agreements _____________________________ 12

   APPENDIX A
      Scope and Methodology _______________________________ 27
      Review of Internal Controls ____________________________ 28
      Prior Coverage ______________________________________ 28

   APPENDIX B
      Management Comments ______________________________ 30

   APPENDIX C
      Report Distribution ___________________________________ 34




REPORT NO. IG-14-020
JUNE 5, 2014




                                                                                 INTRODUCTION


Background

   Pursuant to its authorizing legislation – the National Aeronautics and Space Act (Space
   Act) – NASA may “enter into and perform such contracts, leases, cooperative
   agreements, or other transactions as may be necessary in the conduct of its work and on
   such terms as it may deem appropriate . . . .”5 These agreements may be with other
   Federal agencies, states, individuals, firms, associations, corporations, educational
   institutions, or foreign governments and entities.6

   NASA refers to agreements conducted under the Space Act’s “other transactions”
   authority as Space Act Agreements (SAA) and to the public and private signatories to the
   SAAs as partners. Over the past 50 years, NASA has entered into SAAs with diverse
   groups of people and organizations in the private and public sectors to advance a variety
   of mission and program objectives. SAAs establish a set of legally enforceable promises
   between the Agency and its partners and typically involve a commitment of personnel,
   funding, services, equipment, expertise, information, or facilities from both the Agency
   and its partners. According to Agency officials, SAAs enhance NASA’s ability to
   advance cutting-edge science and technology and are an effective means to stimulate
   industry to initiate new endeavors. In addition, SAAs can entice parties to work with
   NASA that traditionally have not pursued other types of agreements, such as contracts
   and grants, because of the complexity of applicable regulatory requirements and the
   associated cost.

   Types of Space Act Agreements. NASA has entered into four types of
   SAAs – reimbursable, nonreimbursable, funded, and international – as described below.

   In reimbursable SAAs, the partner reimburses NASA’s costs associated with the SAA in
   full or in part. NASA often enters into reimbursable SAAs when it has equipment,
   facilities, or services it is not fully utilizing. Examples include partners using Agency
   wind tunnels and rocket engine test stands for aeronautics testing and propulsion
   development or calling on the technical expertise of Center personnel for such scientific
   endeavors as development of modular robotic vehicles or storage of thermal energy.
   NASA reimbursable SAAs have ranged in value from hundreds of dollars for a facility
   the U.S. Coast Guard occupied at the Michoud Assembly Facility (Michoud) to
   $950 million for a collaborative effort with the Federal Aviation Administration to
   develop the Next Generation Air Traffic Control System.

   5
       51 U.S.C. § 20113(e) (2010).
   6
       51 U.S.C. § 20102(d)(7) and § 20115 provide NASA with authority relating to foreign governments and
       entities.



REPORT NO. IG-14-020                                                                                         1
                                                                                   INTRODUCTION



    Each reimbursable SAA involves a transfer of funds or other financial obligations from
    the partner to NASA, and the Agency requires that such agreements be consistent with
    and not interfere with Agency missions. The terms, conditions, and schedule of
    performance for reimbursable SAAs are negotiable, but NASA requires payment in
    advance from non-Federal partners for each stage of the effort. If NASA is obtaining
    rights to intellectual property, data, or some other benefit, the Agency may accept
    reimbursement for less than the full cost of the activities it performs under the agreement.
    In such cases, NASA refers to the SAAs as partially reimbursable. For partially
    reimbursable SAAs, NASA must determine whether the proposed partner contribution is
    fair and reasonable given the resources committed, program risks, and corresponding
    benefits to the Agency.

    Nonreimbursable SAAs involve NASA and one or more partners in a mutually beneficial
    activity that furthers an Agency mission. Generally, NASA enters into nonreimbursable
    SAAs to conduct collaborative research and development. NASA has used
    nonreimbursable SAAs to conduct aeronautics and Earth sciences research, develop and
    test space instrumentation and propulsion technologies, and for education and outreach
    activities. For each agreement, the Agency contributes equipment, expertise,
    information, facilities, personnel, or support services. Both NASA and its partner bear
    the cost of their individual participation and exchange no funds between them. Because
    nonreimbursable SAAs involve the commitment of NASA resources, the Agency must
    determine whether the partner’s proposed contribution is fair and reasonable when
    compared to the use of NASA resources, potential program risks, and corresponding
    benefits to the Agency.

    Funded SAAs are agreements under which NASA transfers appropriated funds to a
    domestic agreement partner to undertake activities consistent with NASA’s missions.
    Under Agency-developed policy, NASA may only use funded SAAs when it cannot
    accomplish its objectives using a contract, grant, or cooperative agreement. NASA’s use
    of funded SAAs is a relatively recent occurrence and to date most funded SAAs have
    related to the Agency’s efforts to develop commercial spacecraft capable of transporting
    cargo and crew to the International Space Station (ISS or Station). Since 2006, NASA
    has entered into 15 funded SAAs with eight private companies ranging in value from
    $1.4 million to $480 million, with a total value of more than $2.2 billion. Before NASA
    may enter into a funded SAA, it must develop a cost estimate of the funding anticipated
    along with the value of any Agency resources it will commit to the project to determine
    whether the proposed partner’s contribution is fair and reasonable.

    International SAAs may be reimbursable or nonreimbursable. NASA uses these
    agreements to establish bilateral or multilateral arrangements with foreign governmental
    entities, international organizations, foreign commercial entities, and foreign persons. A
    large number of NASA’s international SAAs are associated with ISS or involve
    collaboration on space and Earth science research. Generally, nonreimbursable
    international SAAs are governed by international law and reimbursable international
    SAAs by Federal law. Under Agency rules, all international reimbursable SAAs must
    benefit NASA or the broader U.S. interests.


2                                                                           REPORT NO. IG-14-020
INTRODUCTION



   History of NASA’s Use of Space Act Agreements. With passage of the Space Act in
   1958, NASA was the first Federal agency to receive “other transactions authority.”
   Although NASA has limited records regarding its use of this authority in the early years,
   long-time NASA officials stated that the authority was initially used to further the United
   States’ space race with the Soviet Union and enable as many entities as possible to assist
   in the design and production of associated technology.

   Given the lack of records, it is difficult to determine how much NASA’s use of SAAs has
   grown since passage of the Space Act. Prior to 2007, the Agency maintained only paper
   records of SAAs at the originating Centers or Mission Directorates, and over the years
   many of these records have been lost or misplaced. In 2007, NASA established an
   electronic database known as the Space Act Agreement Maker (SAAM). SAAM is the
   official repository for storing all SAAs except those with international partners, which the
   Agency tracks in a separate database called the System for International External
   Relations Agreements (SIERA).

   Using these two databases, we performed a trend analysis of NASA’s use of SAAs for
   fiscal years (FY) 2008 through 2012. Our analysis shows that overall the number of
   SAAs increased more than 29 percent during this 5-year period. As shown in Figure 1,
   reimbursable SAAs experienced the largest percentage growth at 41 percent. In addition,
   during this period NASA entered into 13 funded SAAs worth $1.8 billion to support its
   commercial cargo and crew development efforts.7 NASA officials tie the increased
   number of SAAs during this 5-year period to termination of the Space Shuttle Program,
   which freed up portions of the Agency workforce and facilities previously dedicated to
   that Program. According to these officials, NASA programs and Centers often pursued
   SAAs to make underutilized resources available to other Government agencies and
   commercial partners and to offset maintenance costs for these resources until the Agency
   needs them in the future.




   7
       As of FY 2014, NASA has entered into 15 funded SAAs worth more than $2.2 billion.



REPORT NO. IG-14-020                                                                              3
                                                                                                         INTRODUCTION



                      Figure 1: Space Act Agreements, FYs 2008 through 2012




    Note: Totals for reimbursable and nonreimbursable amounts include domestic and international SAAs.
    Source: NASA OIG.

    In total, NASA entered into 3,667 SAAs between FYs 2008 and 2012. The average
    length of those agreements was 2 years for domestic SAAs and 4 years for international
    SAAs. As shown in Figure 2, 52 percent of the agreements were with non-Federal
    partners, 33 percent with other Federal agencies, and 15 percent with international
    partners.




4                                                                                             REPORT NO. IG-14-020
INTRODUCTION



                Figure 2: Space Act Agreements by Partner, FYs 2008 through 2012




   a
       Non-Federal partners include academic institutions, nonprofit organizations, state and local governments, and
       commercial entities.
   Source: NASA OIG.


   When sorted by type of agreement, NASA entered into 1,384 nonreimbursable SAAs,
   2,270 reimbursable SAAs, and 13 funded SAAs during this 5-year period (see Figure 3).
   Langley Research Center (Langley) entered into the largest number of nonreimbursable
   SAAs with 236, followed by Johnson Space Center (Johnson) and Goddard Space Flight
   Center (Goddard) with 207 and 189, respectively. The majority of Langley’s
   nonreimbursable SAAs related to aerospace testing and research with other Federal
   agencies and private sector companies. Johnson’s nonreimbursable work primarily
   involved educational agreements with schools and universities. Goddard’s
   nonreimbursable SAAs were primarily for earth and space science research with
   universities and subject matter experts. Goddard also entered into the largest number of
   reimbursable SAAs with 456, followed by Langley with 336 and the Glenn Research
   Center (Glenn) with 303. Goddard’s reimbursable SAAs were largely with other Federal
   agencies to perform joint research. Langley and Glenn’s reimbursable SAAs were
   primarily for use by outside parties of Center testing and laboratory facilities and
   consultation with Center subject matter experts. Finally, Johnson and Kennedy Space
   Center (Kennedy) entered into the 13 funded SAAs, with 6 and 7 agreements,
   respectively.




REPORT NO. IG-14-020                                                                                                   5
                                                                                                        INTRODUCTION



               Figure 3: Space Act Agreements by Center, FYs 2008 through 2012




    Note: Total for reimbursable and nonreimbursable amounts include domestic and international SAAs.
    Source: NASA OIG.


    NASA also entered into 539 international SAAs between FYs 2008 and 2012 (see
    Figure 4). Roughly half of the agreements were with foreign space agencies; 22 percent
    with academic institutions; 20 percent with nonprofit organizations, research institutes,
    and other Government agencies; and the remaining 7 percent with commercial partners.
    The agreements were primarily focused in the areas of science, human exploration, and
    aeronautics. Under 45 of the agreements, researchers from countries such as France,
    Germany, and South Korea visited and performed research at NASA Centers. Japan,
    Canada, and the European Space Agency were NASA’s most frequent international
    partners, accounting for 38 percent of all international SAAs in the 5-year period. A
    large number of the international SAAs were with NASA’s ISS partners for crew support
    and experiments. NASA also entered into 65 agreements with a wide range of other
    countries, including Belgium, the Czech Republic, Chile, Colombia, Algeria, Cape
    Verde, Bangladesh, and the Philippines primarily for collaboration on Earth science
    research.




6                                                                                            REPORT NO. IG-14-020
INTRODUCTION



   Figure 4: Space Act Agreements with International Partners, FYs 2008 through 2012




   Source: NASA OIG.

   Advantages to Using Space Act Agreements. SAAs are not subject to the Federal
   Acquisition Regulation (FAR) or other Federal statutes and thus enable NASA and its
   partners to develop flexible arrangements tailored to their specific needs. For funded
   agreements NASA officials believe that this greater flexibility helps promote creativity
   and can be more cost effective than using traditional contracts. For example, through
   funded SAAs, NASA has incentivized two companies – Space Exploration Technologies
   (SpaceX) and Orbital Sciences Corporation (Orbital) – to develop U.S. domestic cargo
   space transportation capabilities. NASA estimates that by using funded SAAs to
   stimulate the development of SpaceX’s commercial vehicle, the Agency saved between
   $1.4 and $4 billion and could realize similar savings with the Orbital vehicle.8




   8
       Additional savings occurred because SpaceX and Orbital provided over 50 percent of the funding for
       commercial cargo development. Savings are from an OIG analysis of information provided in NASA’s
       Commercial Market Assessment for Crew and Cargo Systems dated April 27, 2011, and NASA’s Falcon
       9 NAFCOM cost estimate overview, dated August 2011.



REPORT NO. IG-14-020                                                                                        7
                                                                                                  INTRODUCTION



    Reimbursable SAAs are a mechanism through which NASA can offset overhead costs for
    underutilized facilities and labor. For example, in 2009, Glenn and Lockheed Martin
    entered into a reimbursable SAA allowing the company to use the Center’s
    10-foot-by-10-foot Supersonic Wind Tunnel. As a result, Glenn received nearly
    $2.8 million in reimbursement to offset the Center’s costs. Similarly, in 2008, Stennis
    Space Center entered into a reimbursable SAA with Orbital allowing the company to use
    the Center’s E-3 rocket engine test stand, an agreement that resulted in nearly
    $7.8 million in reimbursement to offset the Center’s costs. Overall, NASA officials told
    us that reimbursable SAAs play an indispensable role in assisting Centers in sustaining
    underused but needed capabilities and facilities.

    Agency officials also said that nonreimbursable SAAs benefit NASA through
    collaborative research activities and can act as a mechanism for transferring
    NASA-developed technology to industry.9 Overall, NASA officials pointed to the
    important role that nonreimbursable SAAs can play in reducing the Agency’s research
    and development costs through collaborations with partners in industry, other Federal
    agencies, and universities. For example, a nonreimbursable SAA between Langley and
    The Boeing Company (Boeing) for a combined $9.8 million in resource
    commitments – an estimated $2.2 million contributed by NASA – facilitated research
    with the potential to reduce aircraft fuel use, emissions, and noise.

    Risks to Using Space Act Agreements. Over the past decade, the Government
    Accountability Office (GAO), Congressional Research Service, and external think tanks
    such as RAND Corporation have examined Federal agencies’ use of other transactions
    authority. In general, these organizations found that because SAAs entered into under
    this authority are not subject to the FAR (for contracts) or regulations governing Federal
    grants and cooperative agreements, partners are not required to follow Federal Cost
    Accounting Standards and other provisions intended to ensure that costs are allowable
    and prices fair and reasonable. Absent these checks and balances, NASA’s use of SAAs
    has the potential to result in fewer overall protections for the Agency and decreased
    accountability for taxpayer funds.

    Congress has also expressed concerns about NASA’s use of SAAs. For example, at a
    March 2013 hearing, members of the House of Representatives Committee on Science,
    Space, and Technology voiced concerns about NASA’s ability to ensure fair competition;
    increase public awareness; and prevent fraud, waste, and abuse when using SAAs. In
    addition, in April 2014, the Committee proposed legislation that would require NASA to
    make all new SAAs available for public notice and comment at least 30 days before final
    signature; list all current SAAs on its website in a searchable format; and report to




    9
        One of NASA’s strategic objectives is to ensure that technologies developed for its missions are
        available to the public, including private companies.



8                                                                                         REPORT NO. IG-14-020
INTRODUCTION



   Congress annually regarding the number, types, descriptions, and total value of such
   agreements.10

   Formulation and Administration of Space Act Agreements. NASA has developed
   policies for formulating and approving SAAs, and maintains the Space Act Agreements
   Guide (Guide).11 The Guide serves as an Agency-wide instruction manual for entering
   into SAAs.

   Domestic SAAs generally follow one of two paths depending on whether the agreement
   will have “a significant impact.” Pursuant to the Guide, SAAs that involve foreign
   entities, other Federal agencies, state and local governments, classified material, NASA
   aircraft, use of the NASA insignia, or modifications to Center facilities; generate media
   attention; are unusual or controversial; or involve substantial resources are considered to
   have significant impact. Centers and Mission Directorates may negotiate SAAs that do
   not have significant impact directly with partners, while SAAs with significant impact
   require Headquarters review and approval. See Figure 5 for NASA’s SAA formulation
   and approval process.

          Figure 5. NASA’s Space Act Agreement Formulation and Approval Process




   Source: NASA OIG.

   Initiation. Most SAAs result from informal interactions between NASA scientific and
   technical personnel and their counterparts in industry and other Federal agencies or

   10
        “National Aeronautics and Space Administration Authorization Act of 2014,” H.R. 4412, 113 th Congress.
        (2014).
   11
        NASA Advisory Implementing Instruction (NAII) 1050-1C, “Space Act Agreements Guide,”
        February 25, 2013.



REPORT NO. IG-14-020                                                                                             9
                                                                                                    INTRODUCTION



     because outside parties interested in utilizing NASA facilities or personnel proactively
     approach the Agency. Occasionally, NASA will issue advertisements or solicitations to
     attract interest in particular facilities or capabilities. For example, Johnson has issued
     Requests for Information seeking prospective partners to utilize Center structural test
     capabilities, expertise, tools, laboratories, and facilities on a reimbursable basis.12 The
     Guide suggests using a competitive process when an agreement will involve “exclusive
     arrangements,” which the Guide defines as arrangements that involve limited NASA
     resources or capabilities whose use by one party would preclude use by other interested
     parties.

     Internal Review. The initiating Center or Mission Directorate reviews proposed SAAs to
     assess appropriateness, cost, mission relation, and impact on Agency operations. Several
     Centers have established boards or panels to perform these reviews. For example,
     Marshall Space Flight Center (Marshall) screens proposed SAAs through a review board
     known as the Partnership Working Group, Johnson uses its Strategic Development Panel,
     and Armstrong Flight Research Center (Armstrong) its Tactical Management Board.

     Abstract. For SAAs deemed to have a significant impact, the originating Center or
     Mission Directorate prepares for submission to Headquarters an “abstract” or summary of
     the proposed activities, financial and resource commitments, milestones, applicable data
     rights provisions, and a description of how the activities support a NASA mission.
     Abstracts also provide Agency-wide notice of proposed agreements. NASA’s Mission
     Support Directorate manages the abstract process, which involves reviews by the
     Agency’s Office of the General Counsel, Office of Chief Technologist, and other
     Headquarters offices to determine the legality of the proposed activities, their connection
     or relationship with NASA’s mission, and whether they will interfere with other Agency
     needs.

     Draft Agreement. Once a proposed SAA has cleared internal reviews and the abstract
     process (if required), the originating Center or Mission Directorate implements the
     negotiated framework of the agreement directly with the partner. This process typically
     includes identifying each party’s responsibilities, terms, milestones, pricing, and data and
     intellectual property rights. Agency technical points of contact and project managers
     negotiate draft agreements in conjunction with officials from the appropriate Center or
     Headquarters Office of the General Counsel and Office of the Chief Financial Officer
     (OCFO) who review agreements for compliance with applicable regulations. In addition,
     each SAA has a designated Agreement Manager whose primary responsibility is to
     oversee the formulation and approval process. NASA has 29 agreement managers at
     various Centers and Mission Directorates.




     12
          NASA uses Requests for Information to solicit input from industry or other outside parties about
          potential SAA opportunities.



10                                                                                          REPORT NO. IG-14-020
INTRODUCTION



   Estimated Price Report. NASA requires Centers and Mission Directorates to develop an
   Estimated Price Report for all reimbursable and funded SAAs. Estimated Price Reports
   are estimates of the Agency’s costs (e.g., labor, travel, procurement, utilities, etc.)
   required to perform work for a partner, including accounting for any waived or excluded
   costs. Each report must be reviewed and approved by the Center OCFO (for Center
   agreements) or Headquarters Director for the Office of Budget Management and System
   Support (for Headquarters agreements) to ensure sufficiency of funds, that the full costs
   to perform services are charged, and to document the rationale for any cost waivers. For
   nonreimbursable SAAs, NASA requires only a general estimate of the value of Agency
   resources that will be committed.

   Signature. Work can commence under an SAA once the NASA signing official signs the
   final SAA certifying proper review and consistency with Agency policies and guidelines.
   Signing officials are the only individuals permitted to commit the Agency to SAAs. In
   general, signing officials are Center Directors, Associate Administrators, or their
   designees, which may include individuals with management responsibility for projects or
   activities supported by the agreements.

   Execution. Following signature, work on SAA activities begins with oversight provided
   by the initiating NASA Center or Mission Directorate. Oversight generally includes
   tracking agreement terms, milestones, outputs, and costs and is performed primarily by
   technical points of contact and project managers in conjunction with the Center or
   Headquarters OCFO. OCFOs track incurred costs in the Agency’s accounting system,
   monitor agreement costs and funding balances, and identify agreements eligible for
   closeout. The NASA Shared Services Center handles billing and collections for
   reimbursable SAAs.

Objectives

   Our overall objective was to examine NASA’s use of SAAs. Specifically, we assessed
   whether NASA effectively (1) advertised opportunities for outside parties to utilize
   capabilities the Agency makes available through SAAs, (2) identified the full costs of
   work it performed under reimbursable SAAs and properly billed partners, (3) ensured
   that the Agency received fair and reasonable benefits from partners in nonreimbursable
   SAAs, and (4) determined whether reimbursable and nonreimbursable SAAs align with
   NASA’s missions. We also assessed the benefits and limitations of funded SAAs. See
   Appendix A for details of the audit’s scope and methodology, our review of internal
   controls, and a list of prior coverage.




REPORT NO. IG-14-020                                                                           11
                                                                                                 RESULTS




                                   INCREASED AWARENESS AND ADDITIONAL
                                 CONTROLS WOULD ENHANCE TRANSPARENCY
                                    AND ACCOUNTABILITY OF NASA’S SPACE
                                                        ACT AGREEMENTS

                We found that NASA could better ensure equal access to its facilities and capabilities
                and potentially increase the number of parties interested in entering into SAAs by
                expanding its efforts to solicit interest in its facilities and resources. We also found
                that NASA cannot identify the costs it incurs or effectively measure the benefits
                derived from nonreimbursable SAAs; has unclear guidance regarding when it is
                appropriate to use SAAs and the manner in which reimbursable and nonreimbursable
                SAAs must align with the Agency’s missions; and cannot readily separate amounts
                billed and collected from reimbursable SAAs from proceeds received from other
                types of reimbursable agreements. In addition, we question the Agency’s decision to
                refrain from including more information about Agency objectives and key safety
                elements in funded SAAs. Finally, we found little formal guidance relating to the
                administration of funded agreements in current Agency policy.

NASA Could Do More to Ensure Potentially Interested Parties Are
 Aware of Space Act Agreement Opportunities
     The Space Act Agreements Guide (Guide) stresses the importance of providing outside
     parties with equal access to NASA’s capabilities, expertise, and facilities.13 However, we
     sampled 95 SAAs between NASA and non-Federal partners and found the Agency had
     solicited potential interest or otherwise advertised the opportunity for only 5 SAAs.
     NASA officials acknowledged that in most cases reimbursable and nonreimbursable
     SAAs come about as a result of existing contacts between NASA personnel and their
     counterparts in industry and other Federal agencies or when interested parties proactively
     approach NASA rather than through advertising or other types of solicitation by the
     Agency.

     Although we recognize it is not practical for NASA to advertise all SAA opportunities, in
     our judgment, the Agency could increase awareness among industry, academia, and
     researchers of opportunities to collaborate with and utilize its capabilities, facilities, and
     expertise by being more proactive in this area. We found that although most Centers
     display on their websites general information regarding partnership opportunities, they
     rarely issue Requests for Information, public notices, and press releases, or use other
     mechanisms to highlight particular areas of collaboration in which NASA is interested in
     supporting or identify specific capabilities and facilities available to outside parties. We
     also found that when Centers do employ such mechanisms, they report increased interest.

     13
          NASA Advisory Implementing Instruction (NAII) 1050-1C, “Space Act Agreements Guide,”
          February 25, 2013.



12                                                                                  REPORT NO. IG-14-020
RESULTS



   For example, in October 2012, Johnson issued a Request for Information describing
   Center structural test capabilities, expertise, tools, labs, and facilities available to
   prospective partners on a reimbursable basis. Johnson officials told us that this
   announcement increased the number of interested parties approaching the Center seeking
   SAA opportunities.

   Many of NASA’s reimbursable and nonreimbursable SAAs involve the development of
   technologies that could potentially be commercialized by private entities. For example,
   we reviewed an SAA in which Goddard contributed an estimated $363,000 in NASA
   resources to a private company’s effort to develop light-weight mirror technology and a
   Glenn SAA for which the Center contributed an estimated $703,000 in NASA resources
   to another company’s effort to improve aerodynamic performance and design
   optimization of supersonic aircraft. Increasing efforts to ensure that more entities are
   aware of and have the opportunity to participate in SAAs with NASA could help avoid
   perceptions of favoritism when commercial entities stand to gain from their relationships
   with the Agency. Moreover, increasing awareness of NASA’s capabilities could help the
   Agency defray the costs of maintaining underutilized facilities and capabilities. Such
   initiatives would also provide greater transparency into the Agency’s SAA formulation
   process.

NASA Cannot Identify Costs Associated With or Benefits Derived
 from Nonreimbursable Space Act Agreements

   We found that NASA cannot identify its costs or effectively measure the benefits derived
   from nonreimbursable SAAs. NASA generally utilizes nonreimbursable SAAs for
   collaborative research and development projects. Although these agreements involve no
   exchange of funds, NASA nevertheless bears the expense associated with any personnel,
   facilities, expertise, or equipment it contributes. We found that NASA Centers generally
   do not track these costs and therefore cannot identify how much they spend on such SAAs.

   Of the 49 nonreimbursable SAAs we sampled, NASA could provide cost data for only
   4 SAAs. NASA officials explained that Centers or programs typically do not track costs
   associated with nonreimbursable SAAs because such costs are usually insignificant and
   accounted for within the project or program budget associated with the agreement.
   However, we found that the aggregate costs associated with nonreimbursable SAAs are
   significant. To examine this issue in greater depth, we reviewed NASA’s SAAM
   database, which contained cost estimates for approximately one third of the
   nonreimbursable SAAs NASA entered into between 2008 and 2012. Using these
   estimates, we calculated the Agency incurred at least $96 million in costs associated with
   nonreimbursable SAAs, with some individual agreements totaling in the millions of
   dollars. By not tracking these costs, NASA cannot readily perform a cost-benefit
   analysis to assess the value SAAs bring to the Agency and the broader aeronautical,
   scientific, and space exploration communities.




REPORT NO. IG-14-020                                                                            13
                                                                                                         RESULTS



     We also found that NASA has difficulty identifying how the Agency or broader scientific
     community benefitted from research obtained from nonreimbursable SAAs. We asked
     NASA officials to describe and provide support for the benefits derived from a sample
     of 29 concluded nonreimbursable SAAs. For 19 of the 29 agreements, the officials had
     difficulty identifying or demonstrating benefits. In some instances, the officials could not
     provide the requested information because researchers with knowledge of the SAA
     activities were no longer available and there was no documentation regarding benefits
     derived from the agreement. In other cases, SAA activities did not take place, partners
     failed to meet their responsibilities, or the desired results were not obtained. We also
     found instances in which the desired results had been obtained but not used by NASA
     because the underlying project had been cancelled or experienced funding issues. In
     other cases, officials could only point to general outcomes, such as the production of
     research papers or claims that SAA activities resulted in “increased knowledge” or that
     NASA “gained experience” in a particular subject area.

     NASA officials had difficulty identifying benefits derived from nonreimbursable SAAs
     because the Agency lacks a close-out process or similar mechanism to document and
     record outcomes and results of the agreements. The information in the Agency’s
     agreement databases and the SAAs themselves describe only the purpose or expected
     results of the agreement and contain no information about whether the stated goals and
     objectives were accomplished, how the research was eventually utilized, or any
     assessment of the overall performance of the agreement partner. This is in contrast to the
     process used for grants and cooperative agreements in which final progress reports and
     documentation of results are required to provide evidence of the value of the sponsored
     research and ensure proper stewardship of public funds.14 In our judgment, gathering
     similar information regarding nonreimbursable SAAs would help NASA evaluate the
     value of these agreements.

     NASA’s inability to track the total amount it spends on nonreimbursable SAAs coupled
     with incomplete data on the benefits derived from such agreements makes it difficult for
     stakeholders to objectively assess the value these agreements bring to the Agency and to
     the broader aeronautical, scientific, and space exploration communities. Developing
     policies to better identify these costs and benefits would increase transparency and
     accountability for these agreements.




     14
          Office of Management and Budget Circular A-110, “Uniform Administrative Requirements for Grants
          and Agreements With Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,”
          September 1999.



14                                                                                        REPORT NO. IG-14-020
RESULTS



Interpretation of “Mission Requirement” for Space Act
  Agreements Varies Among Centers

                                                    NASA policy requires that SAAs be
                                                    consistent with or further Agency
                                                    missions.15 We found that NASA Centers
                                                    and Mission Directorates have differing
                                                    interpretations of this requirement, which
                                                    result in widely differing applications. Most
                                                    have interpreted the policy to mean that the
                                                    activity covered by the SAA must directly
                                                    relate to a NASA mission – for example,
                                                    aeronautics research conducted by a
                                                    commercial business in a NASA wind
  A NASCAR stock car performing a test at Kennedy's
  Shuttle Landing Facility.                         tunnel. However, some Centers have taken
                                                    the position that as long as the proceeds
  Source: NASA.
                                                    from a SAA help to maintain a needed
  NASA facility or capability the actual activity performed under the agreement need not
  directly relate to a NASA mission. Under this interpretation of the policy, between FYs
  2008 and 2012 Kennedy entered into 14 reimbursable SAAs for an estimated $392,000
  under which NASCAR and other automotive racing teams and manufacturers utilized its
  Shuttle Landing Facility for straight-line vehicular aerodynamics testing. Kennedy
  entered into the agreements as part of a strategy to expand utilization of its facilities to
  outside entities as a means of reducing operating costs.16

                                                              Similarly, Michoud entered into
                                                              13 reimbursable SAAs for an estimated
                                                              $2.9 million under which movie production
                                                              studios, engineering firms, manufacturing
                                                              companies, and other private entities with no
                                                              direct connection to NASA missions utilized
                                                              excess office and warehouse space at the
                                                              facility. Michoud used the proceeds from
                                                              these agreements to reduce operating costs
                                                              at the site.

   A crew works to film a scene of “GI Joe: Retaliation” at
   Michoud.
   Source: Paramount Pictures.




   15
        NASA Policy Directive 1050.1, “Authority to Enter into Space Act Agreements,” December 23, 2008.
   16
        NASA Kennedy Request for Information, “Supporting an Environmental Assessment of Commercial and
        Other Uses of the Shuttle Landing Facility,” September 29, 2006.



REPORT NO. IG-14-020                                                                                          15
                                                                                                            RESULTS



     As we pointed out in a 2012 report, while using SAAs to help offset operations and
     maintenance costs for underutilized assets can benefit NASA, the Agency must be careful
     not to use such arrangements to maintain facilities and capabilities the Agency no longer
     needs.17 Moreover, NASA has other mechanisms to “lease” underutilized facilities that
     may raise more revenue. Specifically, NASA guidance and Federal law requires Centers
     using SAAs to recoup their full costs and to return all revenues in excess of that amount
     to the U.S. Treasury. In contrast, if NASA makes a facility available through an
     Enhanced Use Lease, the rental rate is based on fair market value and the Agency is
     permitted to retain all proceeds for its use.18

     Center officials told us that they tend to use SAAs rather than leases because SAAs are
     easier to negotiate and have a more streamlined approval process. In addition, they
     explained that commercial entities are sometimes reluctant to accept some of the standard
     terms and conditions required in Government leases and that lease approval requires a
     sign-off by NASA Headquarters, which can be time consuming.

     In our judgment, improved guidance regarding the manner in which SAAs must align to
     NASA missions and the appropriate circumstances in which to use SAAs or lease
     agreements would ensure Centers use the most appropriate vehicle when entering into
     partnerships with other entities for use of NASA facilities and resources.

NASA Cannot Readily Identify Amounts Billed or Collected From
 Reimbursable Space Act Agreements

     In addition to SAAs, NASA collects proceeds from outside entities under a variety of
     other types of agreements.19 Although the Agency has a process in place to account for
     and recoup these proceeds as a whole, it cannot readily identify amounts associated with
     reimbursable SAAs.20 NASA’s Shared Services Center bills partners for the Agency’s
     costs associated with each reimbursable activity. However, when we asked to review a
     June 2013 accounts receivable report reflecting outstanding amounts totaling
     $28.9 million, NASA officials could not readily identify which of these figures related to
     SAAs. This occurred primarily because the Agency’s accounting system does not have a
     common identifier to separate SAAs from other types of reimbursable agreements.



     17
          NASA OIG, “An Assessment of the Agency’s Real Property Leasing Practices” (IG-12-020,
          August 9, 2012).
     18
          Beginning in FY 2008, Congress granted all NASA Centers the ability to enter into Enhanced Use
          Leases.
     19
          NASA’s reimbursable activities can occur under numerous authorities including the Space Act, Economy
          Act, Commercial Space Launch Act, Commercial Space Competitiveness Act, Intergovernmental
          Personnel Act, Enhanced Use Lease Authority, and Host-Tenant Agreements under which businesses
          conduct support services such as security and automated data processing.
     20
          We found no indications during our audit work that NASA has failed to collect fees associated with its
          reimbursable SAAs.



16                                                                                          REPORT NO. IG-14-020
RESULTS



   NASA officials explained that the Agency’s accounting system – Systems Applications
   Products (SAP) – was not designed to process reimbursable activity, and therefore
   Centers developed offline tools for financial tracking and reporting requirements. In
   addition, although SAP attaches a sales order number to each reimbursable agreement as
   an identifier, the SAAM and SIERA systems use different identifiers. Therefore, NASA
   officials cannot readily link the information in SAP with the information in SAAM and
   SIERA.

   In the fall of 2011, NASA formed the Reimbursable Process Team to review and develop
   solutions to improve the tracking and accounting of proceeds from all types of
   reimbursable agreements. The Team is developing a four-phase approach to integrate
   data between SAAM, SAP, Business Warehouse (the Agency’s financial reporting
   system), and other Center-based systems to improve tracking and reporting of
   reimbursable agreements. The first phase included entering all types of reimbursable
   agreements into SAAM and generating a number in that system as a common identifier.
   The Team is currently in phase 2, which involves developing a template for the
   nonfinancial data that will be added to the accounting system. In the project’s final two
   phases (phases 3 and 4), the Team plans to merge the common identifier into the
   accounting system and integrate the data with the SAAM system. As of February 2014,
   NASA was developing a schedule to complete this process, at which time Agency
   officials expect to be able to use NASA’s systems to generate comprehensive reports that
   include both financial and nonfinancial data. Having this capability should provide
   additional insight and enable the Agency to better identify, track, and account for the
   nearly $540 million of annual reimbursable activity generated by SAAs.

NASA Provided Limited Information About Agency Objectives and
 Safety Requirements in Commercial Crew Funded Space Act
 Agreements

   Like other Federal agencies, NASA enters into a procurement contract governed by the
   FAR when it acquires goods and services. However, as discussed earlier, NASA also has
   the authority to enter into “other transactions” to accomplish its mission. Since 2006,
   NASA has used this authority to enter into 15 funded SAAs worth a total of $2.2 billion
   to stimulate development of commercial cargo and crew spaceflight capabilities (see
   Table 1).21 This successful effort led to NASA entering into FAR-based contracts with
   two commercial space companies – SpaceX and Orbital – for cargo delivery services to




   21
        We reviewed and made a series of recommendations to improve NASA’s commercial crew and cargo
        programs in three previous audit reports: NASA OIG, “NASA’s Management of the Commercial Crew
        Program” (IG-14-001, November 13, 2013); “Commercial Cargo: NASA’s Management of Commercial
        Orbital Transportation Services and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013);
        and “NASA’s Challenges Certifying and Acquiring Commercial Crew Transportation Services”
        (IG-11-022, June 30, 2011).



REPORT NO. IG-14-020                                                                                         17
                                                                                                              RESULTS



     the ISS. In addition, NASA is currently competing a final development and certification
     contract for commercial crew development and hopes to enter into service contracts with
     one or more commercial companies for crew transportation services to the ISS beginning
     in FY 2017.

                                Table 1: NASA Funded Space Act Agreements
                                                      Funded SAAs
                                           Total Value
                              Award
           Company                            ($ in                               Purpose
                               Date
                                            millions)
      SpaceX                Aug. 2006            $396.0 Commercial Orbital Transportation Services
      Orbital               Feb. 2008             288.0     To facilitate U.S. private industry demonstration

      Rocketplane                                             of cargo and crew space transportation
                            Aug. 2006               32.1      capabilities with the goal of achieving safe,
      Kistler
                                                              reliable, cost effective access to low-Earth orbit.
      Sierra Nevada         Feb. 2010               20.0 Commercial Crew Development Round 1 (CCDev1)
      Boeing                Feb. 2010               18.0    To provide funding to assist viable commercial
      United Launch                                           entities in the development of system concepts,
                            Feb. 2010                6.7
      Alliance                                                key technologies, and capabilities that could
      Blue Origin           Feb. 2010                3.7      ultimately be used in commercial crew human
      Paragon               Feb. 2010                1.4      space transportation systems
      Boeing                Apr. 2011             112.9 Commercial Crew Development Round 2 (CCDev2)
      Sierra Nevada         Apr. 2011             105.6
                                                            To continue development from CCDev1, ending
      SpaceX                Apr. 2011               75.0
                                                              in Preliminary Design Reviews
      Blue Origin           Apr. 2011               22.0
      Boeing                Aug. 2012              480.0    Commercial Crew Integrated Capability (CCiCap)
                                                              To mature the design and development of
      SpaceX                Aug. 2012              460.0       transportation systems for spacecraft, launch
                                                               vehicles, and ground and mission systems to
      Sierra Nevada         Aug. 2012              227.5       achieve a company-defined Critical Design review
      Total                                     $2,248.9
     Source: NASA OIG presentation of Program information.

     Although the Space Act does not explicitly prohibit NASA from using its “other
     transactions” authority to acquire goods or services, the Agency has taken the position
     that the Federal Grant and Cooperative Agreement Act of 1977 and other Federal laws
     and regulations require the use of contracts when the purpose of an agreement is to
     purchase goods or services intended for the direct benefit of NASA.22 Accordingly, in
     NASA’s commercial cargo program the Agency used funded SAAs to stimulate
     commercial development efforts while simultaneously using FAR-based contracts to
     acquire resupply missions to the ISS. Similarly, in the Commercial Crew Program

     22
          The Federal Grant and Cooperative Agreement Act of 1977, 31 U.S. Code § 6303 (1977) states “An
          executive agency shall use a procurement contract as the legal instrument reflecting a relationship
          between the United States Government and a State, a local government, or other recipient when – (1) the
          principal purpose of the instrument is to acquire (by purchase, lease, or barter) property or services for
          the direct benefit or use of the United States Government; or (2) the agency decides in a specific instance
          that the use of a procurement contract is appropriate.”



18                                                                                            REPORT NO. IG-14-020
RESULTS



   NASA began development efforts using SAAs to nurture commercial capabilities,
   entered into FAR-based contracts as it moved toward certifying vehicles for NASA
   requirements, and will use additional contracts to procure actual crew transportation
   missions.

   Consistent with this policy and to maintain a clear distinction between SAAs used to
   develop commercial capabilities and contracts to acquire services, NASA refrained from
   providing specific guidance about Agency objectives and safety requirements to its
   commercial crew partners as part of the funded SAAs. For example, none of the
   281 technical and safety requirements the Commercial Crew Program identified were
   included in the crew agreements. Rather, NASA published the requirements 22 months
   after initiation of the Program in a separate nonbinding document when the partners were
   well into the design phase of their efforts. In contrast, under a typical FAR-based
   contract many of these requirements would have been included in solicitation and
   contract documents. As we have discussed in previous reports, the absence of
   requirements in funded SAAs increases the risk that spaceflight systems developed
   pursuant to these agreements may not meet Agency requirements or will require
   extensive and costly redesign to do so. In a January 2012 report, the Aerospace Safety
   Advisory Panel made a similar observation.23

   Moreover, omitting specific requirements increases the risk of schedule delays and other
   inefficiencies. Although the cargo program started initially with general goals, Program
   officials told us that they later added safety requirements to the SAAs for Orbital and
   SpaceX to ensure safe flight operations to and from the ISS. However, similar safety
   requirements were not included in the SAAs for the Commercial Crew Program and this
   caused confusion. For example, in the early phases of commercial crew development,
   Boeing designed a spacecraft that did not incorporate astronaut pressure suits during
   ascent and descent. Although Program officials said requiring pressure suits was
   NASA’s intent all along, Boeing did not receive timely notification of this fact and had to
   modify its plans to include pressure suits.

   According to NASA officials, the Agency chose not to specify requirements for the early
   phases of the Commercial Crew Program in part to avoid hindering design innovation
   and slowing development of the domestic commercial spaceflight industry. In addition,
   NASA’s Office of General Counsel advised Program officials against levying specific
   requirements in SAAs.




   23
        The Aerospace Safety Advisory Panel’s report stated “The lack of the ability to incorporate firm safety
        requirements using an SAA procurement exposes NASA to new risks if, at the conclusion of the
        developmental phase, the proposed designs do not meet minimum safety requirements. In that event,
        NASA will have to either (1) expend additional time and money having the designs modified and
        retested or (2) accept the risk associated with flying its astronauts on systems that do not meet the
        currently articulated minimum safety requirements.” Aerospace Safety Advisory Panel, “Annual Report
        for 2011,” January 25, 2012.



REPORT NO. IG-14-020                                                                                              19
                                                                                                             RESULTS



     We found that in contrast to NASA, the Department of Defense – which has a form of
     “other transactions” authority – provides more specific guidance to its partners regarding
     desired end products.24 Often referred to as Program Objectives, Design Concepts, or
     System Performance Elements, this guidance occupies a middle ground between the type
     of detailed specifications typically found in traditional contracts and the relatively
     “hands-off” approach of NASA’s funded SAAs. Specifically, the Department of
     Defense’s Defense Advanced Research Projects Agency (DARPA) uses its “other
     transactions” authority to develop prototypes like the Global Hawk, an unmanned aerial
     vehicle that subsequently transitioned into production under a FAR-based contract.
     DARPA applied the lessons learned from this program to other prototyping projects by
     establishing goals for early development and then transitioning to more detailed
     requirements. DARPA used this approach in working with a private company to develop
     its Orbital Express spacecraft.25 DARPA’s announcements for proposals include specific
     objectives and concepts during later phases of development.

     In December 2012, NASA awarded its SAA partners FAR-based contracts pursuant to
     which the Agency will review the partners’ plans and provide feedback regarding NASA
     certification requirements. However, because the partners had completed much of their
     spacecraft design work prior to award of these contracts, the partners have expressed
     concern that NASA’s feedback may not be timely and could cause schedule delays or
     increased costs if design changes are required to meet the Agency’s needs.26

     Allowing program managers to be more specific about program objectives and key safety
     elements when using funded SAAs to develop space flight technologies would help
     ensure the money NASA invests in these development projects produces technology that
     will meet Agency needs and goals. Accordingly, we believe NASA should consider
     incorporating high-level program objectives and key safety elements when using funded
     SAAs to develop spaceflight technology.




     24
          10 U.S.C. § 2371.
     25
          Orbital Express was the name for a DARPA prototype project that concluded in 2007 with the
          demonstration of an unmanned satellite servicing spacecraft and a surrogate next generation satellite.
     26
          According to Program officials, funding shortfalls led NASA to extend its use of SAAs rather than
          transitioning fully to FAR-based contract vehicles. NASA’s first acquisition plan for developing the
          Commercial Crew Program anticipated the use of FAR-based contracts starting in late FY 2012 for the
          integration phase of development. During integration, NASA expected its partners to progress to a point
          where their system designs were mature. However, Agency officials said FY 2012 funding was
          insufficient to execute this plan and, as a result, NASA continued to use funded SAAs to support the
          companies’ development efforts.



20                                                                                           REPORT NO. IG-14-020
RESULTS



Management Approach for Administering Funded Space Act
 Agreements is Not Governed by NASA Policy

   Although NASA followed a specific set of procedures in managing funded SAAs in its
   commercial cargo and crew programs, we found little formal guidance relating to the
   administration of funded agreements in current Agency policy.27 We acknowledge that
   use of funded SAAs is a relatively new approach for NASA and that space system
   development efforts using funded SAAs should not be governed by the same strict
   procedures found in NASA’s current acquisition policies; however, in our judgment,
   developing guidelines would enable more effective administration of funded SAAs.

   Lessons learned from the commercial cargo and crew programs offer a starting point for
   such guidance. For example, codifying the milestone management approach used during
   commercial spaceflight development would help guide future space projects that utilize
   funded SAAs.28 Further, requiring the partners to contribute a portion of the funding
   under a fixed price agreement helped to control Program costs. Additionally, NASA
   teams embedded at partner facilities, coupled with quarterly program reviews, increased
   insight into partner activities and helped the Agency evaluate milestone
   accomplishments.

   To date, NASA and its partners have reported no major problems with the milestone
   management approach. However, the Agency has not codified or explained the approach
   in the Space Act Agreements Guide or in its procedural requirements, directives, or as
   best practices. As of March 2014, the Guide simply states “[a]dditional guidance on
   funded SAAs is under development and will be provided at a later time.”29 Without
   codifying the current milestone management procedures and other procedures that have
   worked well for funded SAA programs to date, it will be more challenging for Agency
   officials to ensure the consistent administration of future development programs that use
   such agreements.




   27
        In a previous audit, NASA officials told us that when using SAAs they were not required to follow
        NASA’s policies for managing space system programs and projects, and therefore management tools
        such as life cycle cost estimates were not required. NASA OIG, “NASA’s Management of the
        Commercial Crew Program” (IG-14-001, November 13, 2013).
   28
        For both the commercial cargo and crew programs, NASA managed cost, schedule, and performance
        goals using a unique milestone approach. Specifically, NASA and the partners agreed to a series of
        developmental milestones that tie payments to satisfactory completion of such events as design reviews,
        subsystem testing, and safety and certification reviews. As opposed to a traditional FAR-based contract
        in which NASA dictates the detailed requirements a company must meet, these milestones and criteria
        were tailored by the individual companies and negotiated with NASA. The agreed-upon payments are for
        a fixed price, which by design does not cover all costs – the company is expected to contribute its own
        funding, to include any potential cost over-runs.
   29
        NASA Advisory Implementing Instruction (NAII) 1050-1C, “Space Act Agreements Guide,”
        February 25, 2013.



REPORT NO. IG-14-020                                                                                              21
                                                                                              RESULTS



                                                                                    Conclusion

     Throughout its history, SAAs have provided NASA a valuable means to advance science
     and technology and to stimulate research in aeronautics and spaceflight. In recent years,
     NASA has turned to SAAs to stimulate the private sector to develop spaceflight systems
     for cargo and crew and to help offset the cost of maintaining underutilized facilities
     following the end of the Space Shuttle Program.

     However, unlike traditional government contracts, grants, or cooperative agreements,
     SAAs are not subject to the FAR or other Federal laws and regulations intended to ensure
     that costs are allowable and prices fair and reasonable. Accordingly, NASA’s use of
     SAAs has the potential to result in fewer overall protections for the Agency as well as
     decreased transparency and accountability regarding how the Agency is using taxpayer
     funds.

     We believe NASA could better ensure equal access to its facilities and capabilities and
     potentially increase the number of parties interested in entering into SAAs by expanding
     its efforts to advertise or solicit interest in its facilities and resources. In addition, NASA
     needs to improve its internal controls over SAAs to identify costs incurred and benefits
     derived from nonreimbursable SAAs, agree on a clear and consistent understanding
     regarding when it is appropriate to use SAAs versus other types of lease agreements and
     the manner in which reimbursable and nonreimbursable SAAs must align with Agency
     missions, and develop the ability to separate proceeds from reimbursable SAAs from
     those derived from other types of reimbursable agreements. We also believe NASA
     could promote better outcomes when using funded SAAs to develop new space
     technologies if it addressed high-level program objectives and key safety elements in the
     agreements. Finally, NASA should codify the milestone management procedures it used
     for its cargo and crew development efforts to ensure consistent administration of future
     development programs that use funded SAAs.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     In order to increase transparency, accountability, and oversight of NASA’s use of SAAs,
     we recommended NASA’s Associate Administrator for Mission Support do the
     following:

     Recommendation 1. Establish policy and procedures to increase awareness of NASA’s
     capabilities, expertise, and facilities for SAA opportunities.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, stating that NASA will establish more explicit policy and
        procedural guidance by March 2015.




22                                                                              REPORT NO. IG-14-020
RESULTS



      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 2. Revise Agency policies to clarify when it is appropriate to use
   SAAs versus other types of lease agreements and the manner in which the agreements
   must align to NASA missions.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that NASA will establish guidance by September 2015.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.

   Recommendation 3. Establish a close-out process or similar mechanism to track the
   costs and benefits of nonreimbrusable SAAs. At a minimum, the process should capture
   (a) overall costs to the Agency; (b) whether the SAA’s stated goals or objectives were
   accomplished, including an assessment of the overall performance of the partner; and
   (c) how the benefits were applied or utilized.

      Management’s Response. The Associate Administrator partially concurred with our
      recommendation, stating that NASA will establish a closeout process by March 2015.
      However, he indicated the planned process would not capture overall costs to the
      Agency for particular nonreimbursable agreements.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions. However, while we support NASA’s
      efforts to develop a close-out process for nonreimbursable SAAs, we encourage the
      Agency to continue to work toward incorporating overall costs in the future. In the
      interim, NASA should consider including the estimated costs it plans to develop in
      response to recommendation 5 below.

   In addition, we recommended NASA’s Chief Financial Officer do the following:

   Recommendation 4. Complete and implement the Reimbursable Process Team’s
   recommendations to improve the reimbursable process and correct NASA’s current
   inability to combine financial and nonfinancial information in the Agency’s accounting
   system.




REPORT NO. IG-14-020                                                                        23
                                                                                     RESULTS



        Management’s Response. Responding for the Chief Financial Officer, the Associate
        Administrator concurred with our recommendation, stating that NASA has developed
        and is implementing a reimbursable reporting process that links financial and
        nonfinancial data. He expects the process to be fully implemented by
        September 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.

     Recommendation 5. Establish policy and procedures to account for the costs of
     NASA’s nonreimbursable SAAs.

        Management’s Response. The Associate Administrator partially concurred with our
        recommendation, stating that NASA’s systems are not currently set up to track costs
        for nonreimbursable activity. Therefore, in lieu of developing a new process to
        account for the costs, he plans to revise the current process for reviewing
        nonreimbursable agreements to include the establishment of Estimated Price Reports
        with annual validations of estimated costs. He expects the process to be fully
        implemented by September 2015.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions. However, while we support NASA’s
        efforts to estimate the costs of nonreimbursable SAAs, we encourage the Agency to
        continue to work toward developing a process to fully account for the costs in the
        future.

     We also recommended NASA’s Associate Administrator for the Human Exploration and
     Operations Mission Directorate do the following:

     Recommendation 6. Consider identifying and including high-level program objectives
     and key safety elements in future Announcement for Proposals when using funded SAAs
     to develop spaceflight capabilities.

        Management’s Response. Responding for the Associate Administrator for the
        Human Exploration and Operations, the Associate Administrator for Mission Support
        concurred with our recommendation, stating that NASA will include objectives and
        elements in future agreements as appropriate and document the decisions in Agency
        acquisition strategy milestones.

        Evaluation of Management’s Response. Management’s comments are responsive;
        therefore, the recommendation is resolved and will be closed upon verification and
        completion of the proposed corrective actions.




24                                                                      REPORT NO. IG-14-020
RESULTS



   Recommendation 7. Codify the current milestone management procedures used in the
   commercial cargo and crew programs into a NASA directive, requirements document, or
   guide.

      Management’s Response. The Associate Administrator concurred with our
      recommendation, stating that NASA plans to develop a best practices guide for the
      management of funded SAAs. He expects the guide to be complete by June 2015.

      Evaluation of Management’s Response. Management’s comments are responsive;
      therefore, the recommendation is resolved and will be closed upon verification and
      completion of the proposed corrective actions.




REPORT NO. IG-14-020                                                                       25
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

   We performed this audit from February 2013 through June 2014 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We reviewed Federal and NASA policies, regulations, and instructions to determine the
   requirements and criteria for entering into and executing SAAs. The documents we
   reviewed include “National Aeronautics and Space Act,” Title 51 United States
   Code § 20113, December 18, 2010; “Commercial Space Launch Activities of 2010,”
   Title 51 United States Code § 50901 et seq., December 18, 2010; “Economy Act,” Title
   31 United States Code § 1535, February 14, 1984; NASA Policy Directive 1050.1I
   “Authority to Enter into Space Act Agreements,” December 23, 2008; NASA Advisory
   Implementing Instruction 1050-1A “Space Act Guide,” August 15, 2008; and NASA
   Procedural Requirements 9090.1A “Reimbursable Agreements,” February 25, 2013.

   To gain a general understanding of the execution and management of SAAs we
   interviewed officials from NASA’s Mission Support Directorate, Office of the General
   Counsel, OCFO, and Office of International and Interagency Relations. We also
   interviewed agreement managers and other officials responsible for executing SAAs at all
   10 NASA Centers and the NASA Shared Services Center.

   We relied on SAA data provided by NASA from the Agency’s SAAM and SIERA
   systems for the period FYs 2008 through 2012. We used the data to identify and examine
   trends in the Agency’s use of SAAs over the 5-year period. We also used the data to
   identify a universe of SAAs and to select a sample of agreements for our review.

   We judgmentally selected a sample of 155 SAAs NASA entered into between FYs 2008
   and 2012. The sample included 101 reimbursable SAAs, 48 nonreimbursable SAAs, and
   6 international SAAs that were signed at Headquarters and 10 Centers – Ames,
   Armstrong, Glenn, Goddard, Jet Propulsion Laboratory, Johnson, Kennedy, Langley,
   Marshall, and Stennis. We distributed questionnaires to Headquarters and the Centers to
   obtain information on the SAA’s formulation, accounting, and relationships to NASA’s
   missions. For reimbursable SAAs, we used the information provided to determine if the
   Agency is recovering full cost for the work that was performed. For nonreimbursable
   SAAs, we examined how the Agency accounts for their costs and benefits. For both
   types of agreements, we assessed how the Agency creates awareness of opportunities to
   participate, and how the agreements relate to NASA’s missions.


REPORT NO. IG-14-020                                                                           27
                                                                                       APPENDIX A



     For Funded SAAs, we partially relied on interviews and analyses we conducted during
     previous audits on NASA’s Commercial Cargo and Crew Programs. We also conducted
     additional follow-up interviews, reviews of applicable documents, and legal reviews
     provided by the OIG Counsel. Moreover, to ensure that NASA’s Office of General
     Counsel’s views were fully understood, we conducted several meeting sessions and fully
     considered the documents they submitted for consideration.

     Use of Computer-Processed Data. To identify our audit universe, we used
     computer-processed data from the SAAM and SIERA systems. We obtained the data for
     the period of October 2007 through September 2012. We did not validate the accuracy of
     the data in the systems, and the data is only as accurate as that entered by the agreement
     managers.

Review of Internal Controls

     We reviewed and evaluated the internal controls associated with the execution and
     management of SAAs. The control weaknesses we identified are discussed in the Results
     section of this report. Our recommendations, if implemented, will correct the identified
     control weaknesses.

Prior Coverage

     During the last 12 years, NASA OIG, the GAO, the Congressional Research Service, and
     the RAND Corporation have issued seven reports of particular relevance to the subject of
     this report. Unrestricted reports can be accessed over the Internet at http://oig.nasa.gov/
     (NASA OIG), http://www.gao.gov (GAO), http://www.crs.gov (Congressional Research
     Service), and http://www.rand.org (RAND).

     NASA Office of Inspector General
     “NASA’s Management of the Commercial Crew Program” (IG-14-001,
     November 13, 2013)
     “Commercial Cargo: NASA’s Management of Commercial Orbital Transportation
     Services and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013)

     Government Accountability Office
     “Key controls NASA Employs to Guide Use and Management of Funded Space Act
     Agreements Are Generally Sufficient, but Some Could Be Strengthened and Clarified”
     (GAO-12-230R, November 17, 2011)
     “Reimbursable Space Act Agreements: NASA Generally Adhering to Fair
     Reimbursement Controls, but Guidance on Waived Cost Justifications Needs
     Refinement” (GAO-11-553R, May 26, 2011)




28                                                                           REPORT NO. IG-14-020
APPENDIX A



   “Training Necessary to Address Data Reliability Issues in NASA Agreement Database
   and to Minimize Potential Competition with Commercial Sector” (GAO-11-552R,
   May 26, 2011)

   Congressional Research Service
   “Other Transaction Authority” (July 15, 2011)

   RAND Corporation
   “Assessing the Use of “Other Transactions” Authority for Prototype Projects” (2002)




REPORT NO. IG-14-020                                                                     29
                      APPENDIX B




     MANAGEMENT COMMENTS




30            REPORT NO. IG-14-020
APPENDIX B




REPORT NO. IG-14-020   31
             APPENDIX B




32   REPORT NO. IG-14-020
APPENDIX B




REPORT NO. IG-14-020   33
                                                                                   APPENDIX C




                                                           REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Chief Financial Officer
     General Counsel
     Associate Administrator for Aeronautics Research
     Associate Administrator for Education
     Associate Administrator for Human Exploration and Operations
     Associate Administrator for International and Interagency Relations
     Associate Administrator for Mission Support
     Associate Administrator for Science
     Executive Director, NASA Shared Service Center
     Director, Ames Research Center
     Director, Armstrong Flight Research Center
     Director, Glenn Research Center
     Director, Goddard Space Flight Center
     Director, Jet Propulsion Laboratory
     Director, Johnson Space Center
     Director, Kennedy Space Center
     Director, Langley Research Center
     Director, Marshall Space Flight Center
     Director, Stennis Space Center

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space



34                                                                         REPORT NO. IG-14-020
APPENDIX C



   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations
      Subcommittee on Commerce, Justice, Science, and Related Agencies
   House Committee on Oversight and Government Reform
      Subcommittee on Government Operations
   House Committee on Science, Space, and Technology
      Subcommittee on Oversight
      Subcommittee on Space




REPORT NO. IG-14-020                                                     35
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Michael Brant, Project Manager
   Kevin Fagedes, Project Manager
   Cedric Campbell, Associate Counsel to the Inspector General - Central Region
   Andrew McGuire, Lead Management Analyst
   Megan Paxton, Auditor
   Wayne Emberton, Auditor
   Letisha Antone, Auditor
   Michael Palinkas, Management Analyst
   Sarah McGrath, Editor




REPORT NO. IG-14-020                                                              37
                                                                                      JUNE 5, 2014
                                                                    REPORT NO. IG-14-020




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
